~~
I

@OCKLE

2311 Douglas Street Le ga 1B riefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR SAINTS PETER AND PAUL HOME, Petitioner,
v.
PENNSYLVANIA, et al., Respondents.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, et al., Petitioners,
v.
PENNSYLVANIA, et al., Respondents.
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of April, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE AMICI CURIAE CHILD USA, DIGNITYUSA,
NEW WAYS MINISTRY, THE QUIXOTE CENTER, THE WOMEN’S ALLIANCE FOR THEOLOGY, ETHICS AND
RITUAL, AND THE WOMEN’S ORDINATION CONFERENCE IN SUPPORT OF RESPONDENTS in the above entitled

case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
MARCIA. HAMILTON, ESQ. LESLIE C. GRIFFIN, ESQ.
CEO & Academic Director Counsel of Record
CHILD USA UNLV BOYD SCHOOL OF LAW
FELS INSTITUTE OF 4505 S. Maryland Parkway
GOVERNMENT PROFESSOR, Box 451003
OF PRACTICE Las Vegas, NV 89154-1003
FOX FAMILY PAVILION leslie. griffin@unlv.edu
SENIOR FELLOW IN (702) 895-2071
RESIDENCE
PROGRAM FOR RESEARCH Attorney for Amici Curiae
ON RELIGION

UNIVERSITY OF PENNSYLVANIA
3814 Walnut Street

Philadelphia, PA 19104
hamilton.marci@gmail.com

(215) 746-4165

Subscribed and sworn to before me this 3rd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Hebraska @
RENEE J. GOSS
‘My Comm. Exp. September 5, 2023

  

teas? Ondraw-h, Chl

Affiant

   

 

 

Notary Public
SERVICE LIST

Michael J. Fischer
Counsel of Record
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
mfischer@attorneygeneral.gov
215-560-2171
Party name: Commonwealth of Pennsylvania, et al.

Mark Leonard Rienzi
Counsel of Record
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
mrienzi@becketlaw.org
202-349-7208
Party name: The Little Sisters of the Poor Saints Peter and Paul Home

Noel J. Francisco
Counsel of Record
Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Party name: Donald J. Trump, President of the United States, et al.
